VOLPE’S PROJECT MANAGEMENT
         OVERSIGHT

Research and Special Programs Administration


        Report Number: SC-2004-100
      Date Issued: September 30, 2004
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit Report on Volpe’s Project                             Date:    September 30, 2004
           Management Oversight
           Research and Special Programs Administration
           SC-2004-100

  From:    Alexis M. Stefani                                                Reply to
                                                                            Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Deputy Secretary
           Chief of Staff
           Deputy Administrator, Research and Special
            Programs Administration

           This represents the third of three reports on the Volpe National Transportation
           Systems Center (Volpe). This audit was requested by Representative Ernest J.
           Istook, Jr., Chairman of the House Appropriations Subcommittee on
           Transportation and Treasury, and Independent Agencies. Chairman Istook
           requested that the Office of Inspector General (OIG) conduct an audit to
           determine: (1) how Volpe’s role and functions have changed over the years and
           whether current Volpe activities meet the Department of Transportation’s (DOT)
           needs, (2) if Volpe has the necessary financial controls in place to assure its
           service fees are appropriate, and (3) DOT’s role in overseeing Volpe and whether
           that role is adequate to ensure that Volpe provides cost-effective services.

           Our first report1 addressed Volpe’s role and functions in the Department and
           whether Volpe is meeting DOT’s needs. Our second report2 covered Volpe’s
           financial controls. This third and final report addresses Volpe’s project
           management oversight of DOT work and whether it is adequate to ensure cost-
           effective services. We focused our efforts on DOT projects because of
           congressional concerns regarding such work and the organizational relationship
           between the Department and Volpe. (See Exhibit A for our audit objective, scope,
           1
               OIG Report Number SC-2004-077, “The Role and Functions of the Volpe National Transportation
               Systems Center,” August 4, 2004. OIG reports can be accessed on our website: www.oig.dot.gov.
           2
               OIG Report Number FI-2004-076, “Financial Controls for Cost Accounting and Billing Practices, Volpe
               National Transportation Systems Center,” August 4, 2004.
                                                                                    2


and methodology.) During the course of our audit, three other studies of Volpe
were conducted, two by the Research and Special Programs Administration
(RSPA) and one at the direction of the Secretary. The Secretarial review, which is
to be completed later this year, will incorporate the work done by RSPA and the
OIG.

RESULTS IN BRIEF
While our second report found Volpe’s financial controls to be sufficient in a
number of important areas, including the recording and assignment of direct labor
and acquisition costs, this report identified several areas for improvement in the
Center’s project management oversight. Specifically, we found: (1) project
agreements between Volpe and DOT customers frequently lack well-defined
requirements, (2) cost estimates are deficient for most projects, (3) project
management and oversight are hampered by insufficient project status reporting,
and (4) project management controls do not ensure the timely reimbursement of
excess funds on inactive projects. These four areas, which are summarized below,
hinder not only Volpe’s and DOT’s management and oversight of departmental
projects, but also their ability to ensure the cost-effectiveness of the Center’s
services.

ü    Project agreements frequently lack well-defined requirements. Volpe’s
     policies and procedures for developing project agreements with DOT
     customers need to be improved. Comprising over $140 million in new DOT
     funding in fiscal year (FY) 2003, these agreements frequently lack sufficient
     detail about what services will be provided and the time period and costs
     involved. Based on our review of project agreements involving 20 randomly
     selected DOT projects, we found all lacked well-defined requirements in at
     least one of four important areas (i.e., tasks, cost estimates, deliverables with
     completion dates, and performance reporting). For example, approximately
     half of the 20 projects did not have sufficiently defined tasks or deliverables
     with completion dates. In many cases, the requirements were either not
     quantified or left to the customer to define at some future date. One multi-
     year project agreement involving $9.2 million with the Federal Aviation
     Administration’s (FAA) Environmental, Compliance and Employee Safety
     program stated that training would be provided but did not indicate how
     many classes would be held, the number of employees to be trained, or the
     desired time frame. Given the significant funds transferred to Volpe each
     year, it is critical that Volpe and its DOT customers have a clear
     understanding of how these funds will be used and what services will be
     provided. They must also ensure adequate controls exist for managing
     individual projects (e.g., milestones and performance reports).
                                                                                                    3


ü       Cost estimates are deficient for most DOT projects. Volpe needs to
        develop standards for preparing cost estimates on DOT projects. Presently,
        the development of project cost estimates is left to the discretion of
        individual Volpe project managers. This results in significant differences in
        the number and quality of cost estimates being developed, as well as the
        retention of supporting documents. For example, based on our review of
        20 DOT projects, we found that 19 did not fulfill minimum best practices3 for
        preparing a cost-estimate analysis. Funding for these projects ranged
        between $180,000 and $80 million (from October 1998 through May 2003).
        In one case, the project manager based his estimate on available customer
        funds rather than the cost to perform specific tasks. Similarly, our review4 of
        Volpe’s work on the Advanced Retrieval “Tire, Equipment, Motor Vehicle”
        Information System (ARTEMIS) project for the National Highway Traffic
        Safety Administration’s (NHTSA) Office of Defects Investigation found the
        project proceeded without a systems development strategy and reliable cost
        and schedule estimates. As a result, development cost estimates increased
        from $5.35 million to $9.4 million (76 percent increase) and the project
        encountered delays of over 20 months. Without project cost estimates,
        management accountability is lessened, making it difficult for Volpe and its
        customers to determine the cost effectiveness of those services being
        provided.

ü       Project management and oversight are hampered by insufficient
        reporting. Volpe is currently unable to provide to its customers project
        status reports that integrate both cost and performance information and are
        useful and easy to read. Nearly one-third of the DOT customers we
        interviewed complained that Volpe’s project reporting does not adequately
        track costs, milestones, and deliverables or found that progress reports were
        difficult to understand. For example, FAA funds Volpe’s work on the
        Enhanced Traffic Flow Management System from three sources.5 However,
        current Volpe financial reports do not show expenditures by funding source,
        thereby making it difficult for FAA to track expenditures or remaining
        available funds from each of the three sources. Although Volpe is working
        on improving its automated systems, it needs to ensure these improvements
        lead to better customer reports that integrate project status and cost
        information. This will allow both Volpe and the customer to better manage
        projects.

3
    These requirements are cited in the Project Management Institute’s Guide to the Project Management
    Body of Knowledge; Newtown Square, PA: 2000.
4
    OIG Report Number MH-2004-088, “Follow-up Audit of the Office of Defects Investigation, National
    Highway Traffic Safety Administration,” September 23, 2004.
5
    Between October 1998 and May 2003, Volpe received approximately $80 million in new obligation
    authority from FAA for the Enhanced Traffic Flow Management System.
                                                                                                       4


ü       Project management controls do not ensure the timely reimbursement of
        excess funds on inactive projects. Volpe project managers do not promptly
        identify and reimburse unneeded funds on projects that are no longer active.
        This is occurring because Volpe lacks adequate controls for identifying
        inactive projects.6 Our review of Volpe records found 65 projects with
        $1.5 million in available obligation authority that had been accumulated
        between FY 1988 and FY 1999 and was still outstanding as of May 1, 2003.7
        None of these projects had received any new obligations since FY 2000.
        Moreover, based on our examination of documents and interviews with
        Volpe officials relating to 10 of the 65 projects, we identified 5 that should be
        closed and $177,213 returned to the customer and, in turn, the
        U.S. Treasury. In addition to reviewing the remaining 55 projects (totaling
        $834,226 in available funding), Volpe needs to improve its management
        controls and monitoring to ensure the timely return of available funds on
        projects that are no longer active.

The RSPA management assessment team in a draft reported dated July 2003
identified a number of similar weaknesses in Volpe’s project management
oversight. This assessment of Volpe’s operations aimed to provide feedback and
direction to Volpe to improve project management. For example, the assessment
noted that “[t]o manage projects more effectively, Volpe could benefit from an in-
depth analysis of type of data the program managers and their customers need.”
As Volpe takes action to address these weaknesses, RSPA needs to ensure that
these corrective actions are timely and fully implemented.

The ARTEMIS project discussed above illustrates the serious impact that poorly
defined requirements and cost estimates can have on Volpe’s ability to meet the
needs of DOT customers. As a result of problems with ARTEMIS, Volpe was
required to establish a risk mitigation account to hold itself accountable for project
cost overruns. To prevent such problems from reoccurring, Volpe management
must ensure that all projects have clearly defined requirements with reliable cost
estimates and schedules. Such controls will also help guarantee the cost-
effectiveness of Volpe’s services to DOT.

Based on our findings, we recommend the Volpe Director and RSPA
Administrator strengthen policies, procedures, and management oversight to
ensure project agreements have adequately defined requirements, including tasks,
cost estimates, deliverables with milestones, and performance reporting. We also
recommend developing an automated reporting and tracking capability that

6
    For this review, we defined an inactive project as one with no new obligation authority since FY 2000
    and unobligated balances of 3 years or older.
7
    Volpe has been unable to generate subsequent reports since the conversion to the Delphi system in
    May 2003.
                                                                                 5


integrates project requirements, schedules, deliverables, and costs and that
generates more useful and easy-to-read financial and project status reports for
Volpe’s customers. Finally, we recommend establishing controls to ensure the
timely identification and reimbursement of unneeded funds on projects that are no
longer active. Volpe also needs to complete the return of $177,213 relating to the
5 inactive projects and review the remaining 55 projects (totaling $834,226 in
available funding) for possible closure, with all unneeded funds promptly returned
to the customer.

On September 27, 2004, RSPA provided comments (see Appendix) to our draft
report. RSPA concurred with our recommendations, indicating they were
consistent with the observations that were made during the RSPA management
assessment and the DOT Task Force review. RSPA also pointed out that they
have initiated a comprehensive plan of action to address project management
oversight deficiencies at Volpe and plan to forward to our office these actions and
a status report on this effort by November 17, 2004. These efforts should help to
strengthen Volpe’s project management oversight. Our recommendations will
remain open until we receive RSPA’s action plan and status report and assess their
responsiveness. To help facilitate this process, we request that RSPA include in
its November 2004 response a listing of actions taken or planned to address each
of the report’s three recommendations and the target dates for completion.

BACKGROUND
The John A. Volpe National Transportation System Center, located in Cambridge,
Massachusetts, is an international center for research and development,
engineering, and analysis of transportation-related issues. Although part of DOT’s
RSPA, Volpe receives no direct appropriations from Congress. Instead, Volpe is
entirely funded through a fee-for-service structure in which all costs are covered
by sponsored project work. For FY 2003, Volpe received $232 million in funding
(as measured in new obligation authority), with 64 percent ($149 million) coming
from DOT sources and 36 percent ($83 million) from non-DOT sources. By itself,
Volpe is larger than several of DOT’s smaller Operating Administrations, making
up over half of RSPA’s Federal staffing and two-thirds of its budgetary resources.

During the course of our audit, three other studies of Volpe were conducted, two
by RSPA and one at the direction of the Secretary. The objective of the first
RSPA study was to provide Volpe with feedback and direction to improve project
management. In July 2003, the RSPA management assessment team identified a
number of issues in a draft report. The second RSPA study focused on Volpe’s
organizational structure. Based on this study, the Volpe Director, in a
memorandum dated April 13, 2004, proposed restructuring the Center and
establishing an oversight office in Washington, DC.           The Secretary of
                                                                                                     6


Transportation established a departmental task force in 2003 to review “all aspects
of Volpe organization.” This review, which is to be completed later this year, will
incorporate the work done by RSPA and the OIG.

RESULTS
While our second report found Volpe’s financial controls to be sufficient in a
number of important areas, including the recording and assignment of direct labor
and acquisition costs, this report identified several areas for improvement in the
Center’s management oversight of DOT projects. Specifically, we found:
(1) project agreements between Volpe and DOT customers8 frequently lack
well-defined requirements, including preparing cost estimates; (2) project
management and oversight are hampered by insufficient reporting; and (3) project
management controls do not ensure the timely reimbursement of unneeded funds
on inactive projects. These areas limit not only Volpe’s and DOT’s management
and oversight of departmental projects but also their ability to ensure the cost-
effectiveness of the Center’s services. The following discusses our major
findings.

Volpe Needs To Strengthen Policies and Procedures for Defining
Project Requirements and Estimating Costs
Volpe’s policies and procedures do not provide adequate controls to ensure the
development of project requirements, including fully defined tasks, cost estimates
related to each task, deliverables with completion dates, and performance
reporting. Instead, much is left to the discretion of Volpe project managers,
resulting in many requirements not being fully defined before projects start. Until
these shortcomings are addressed, project management will continue to be
hampered and DOT customers will have limited assurances that Volpe has
identified all project requirements and associated costs up front. Volpe will also
find it difficult to ensure the cost-effectiveness of its services to DOT.

Project Requirements Are Frequently Not Well-Defined
Volpe uses two documents to initiate a DOT project: the General Working
Agreement (GWA) and the Project Plan Agreement (PPA) (see Figure). The
GWA is a funding agreement between Volpe and the DOT customer stating the
total funds that will be advanced and obligating the funds against the customer’s
appropriation. The PPA is the detailed technical plan that includes the work
requirements, deliverables, milestones, progress reporting, and funding provisions.
The PPA procedures as prescribed in Volpe Order 5000.3B, “Processing Project

8
    “Customer” in this report refers to the DOT manager responsible for the day-to-day oversight of the
    project versus the customer finance officers discussed in our second Volpe report.
                                                                                                     7



           Figure. Volpe’s Project Initiation and Funding Documents

                      GWA                                                 PPA
          General Working Agreement                            Project Plan Agreement

    1. Establishes overall program scope            1. Establishes specific statement of work

    2. Establishes sponsor funding level            2. Details resources required

    3. Customer obligation = Volpe obligation       3. Details deliverables, schedules, and
       authority                                       milestones


Plan Agreements” (June 3, 1986), state that the preparation of a PPA should be as
succinct as possible and must include paragraphs on description of work,
deliverables and schedules, milestones, and review and reports to customers.

To help assess Volpe’s
                                     Table 1. How Often Key Attributes of a Well-
policies and procedures for               Defined Project Agreement Were Met
defining project requirements,
we developed a project                                                                        Projects
                       9                        Key   Project   Attributes
agreement       model        (see                                                               Met
Table 1). This model served
                                    ü Fully defined work scope described by
as a baseline for evaluating the       specific tasks
                                                                                              12 of 20
            10
20 projects in our sample.
Based on our evaluation, we         ü Cost estimates related to each task                      1 of 20
concluded that none of the
20 projects clearly identified,     ü Defined deliverables with completion
in sufficient detail, all of the                                                               7 of 20
                                       dates
four attributes (see Exhibit B).
Specifically, we determined         ü Specific reporting requirements for
that only 12 of the 20 projects        measuring performance and controlling 3 of 20
                                       cost
had fully specified task
requirements         and        7 Source: Project Management Institute. Guide to the Project Management
                                           Body of Knowledge; Newtown Square, PA: 2000.
had      adequately      defined
deliverables with completion dates. In many cases, the requirements were either
not quantified or left to the customer to define at some future date. For example,
in one case involving an FAA project agreement dated September 23, 1998, for
the National Airspace System Modernization Safety Risk Assessment and


9
   We reviewed this model with Volpe senior management and reached agreement on the attributes of a
   well-defined project.
10
   We randomly selected 20 ongoing DOT projects with funding from FY 1999 through FY 2003. Our
   review examined PPAs and PPA revisions or modifications developed for the 20 projects.
                                                                                                             8


Evaluation, three of the four task completion dates were originally listed “To Be
Determined” under the deliverable section.

Volpe Order 5000.3B generally addresses the attributes cited in Table 1, with the
exception of cost estimating, but project managers are not fully complying with
the order. For example, the order calls for a statement of work, deliverables and
schedules, milestones, and quarterly reports. Table 1 shows these requirements
are frequently not met. This is occurring because Volpe management is not
ensuring that project managers define the work requirements in sufficient detail,
such as quantifying the amount of effort involved. This is particularly true for
those projects involving long-term service agreements (e.g., analyses and
evaluations, information technology support, training). Moreover, Volpe leaves it
to the DOT customer and the Volpe project manager to decide what specific
reporting information will be provided.

As a result, Volpe frequently accepts projects even though DOT customers are not
always sure what they want and continues to work with the customers to better
define their needs as the project progresses.11 According to several Volpe
officials, DOT customers view the Center’s personnel as an extension of their own
staff. This situation, however, can lead to Volpe project managers and DOT
customers not clearly defining project requirements. As an illustration, a multi-
year project agreement involving $9.2 million with FAA’s Environmental,
Compliance and Employee Safety Program stated that training would be provided.
It did not indicate how many classes would be held, the number of employees to
be trained, or the desired time frame. By not clearly defining project
requirements, project performance is difficult to measure, projects can incur
greater costs, and customer needs may not be met.

Volpe Does Not Use Standard Cost Estimating Procedures
Another area requiring improvement is the development of project cost estimates.
We found that nearly all of the 20 DOT projects we reviewed did not have cost
estimates or had not retained any documentation showing that a cost estimate had
been done. A major reason for this was the lack of any guidance or policy
requiring that Volpe project managers develop cost estimates or retain supporting
documentation as part of the Center’s PPA process. Volpe project managers gave
several other reasons why they had not prepared cost estimates. For example, one
Volpe project manager indicated that available customer funds generally drive his
estimates because customers consider him an extension of their staff. Several
other project managers indicated they had completed cost estimates but, due to the
informal procedures at Volpe, had not retained the documentation. As a result,

11
     Volpe officials noted that some project requirements, such as those for research efforts, are difficult to
     define up front.
                                                                                                           9


Volpe project managers for 19 of the 20 projects we reviewed had either not
prepared a “bottom-up” cost estimate12 or had not kept the supporting
documentation (see Exhibit B). The 20 projects in our sample had new obligation
authority from October 1998 to May 2003 ranging between $180,000 and
$80 million.

Because Volpe does not                    Table 2. Minimum Requirements
require that cost estimates be               for a Cost-Estimate Analysis
prepared or retained, the DOT
customer does not have a           ü Work breakdown structure by identifiable tasks and
                                     deliverables
realistic estimate of the final
cost of the project, and           ü Resource requirements (staff, contractors,
                                     equipment)
management accountability is
                                   ü Resource rates (staff cost per hour, equipment cost
weakened. In accordance with
                                     per unit, equipment lease rates per day)
best practices as shown in
                                   ü Duration estimates (days or weeks to complete
Table 2, managers should             tasks)
provide a cost estimate of each
                                   ü Risks (costs to mitigate tasks with potential risks)
identifiable      task      and
deliverable before project Source: Project      Management Institute. Guide to the Project Management
                                         Body of Knowledge; Newtown Square, PA: 2000.
initiation. To do this, project
managers need to define project requirements clearly, and Volpe needs to establish
and enforce a standard cost-estimating policy.

We also noted that cost estimating was a problem in our report on NHTSA’s
Office of Defects Investigation (dated September 23, 2004). In reviewing Volpe’s
work on the ARTEMIS project, we found that Volpe developed a cost estimate
before finalizing project requirements for systems development and did not use
generally accepted estimating techniques. As such, development cost estimates
increased from $5.35 million to $9.4 million, and the project encountered delays
of over 20 months. Finalizing project requirements in advance, using proper cost-
estimating techniques, and providing a reliable estimate may have prevented such
problems.

Volpe recognizes the need for improving its policies and procedures for defining
project requirements. In fact, Volpe is developing a Project Management Process
Standard for all new projects that will start in FY 2005. One of the improvements
being considered is to establish an initial PPA based on preliminary work and to
enter into follow-on PPAs once the task requirements, deliverables, schedule




12
     A “bottom-up” cost estimate involves the development of individual cost estimates for each project
     activity, task, or deliverable that is then rolled into an overall cost estimate for the entire project.
                                                                                                     10


dates, and reporting requirements are more clearly defined.13 Volpe is also
developing a cost- and schedule-estimation standard that will provide instructions
for developing cost estimates, as well as requiring that estimates be prepared
before the start of any project. In addition, to ensure compliance with existing
policy and consistency in the development of PPAs, Volpe is developing a training
program for its project managers. We support these efforts and see them as a
means to improve overall project management oversight, as well as helping ensure
the cost-effectiveness of Volpe’s services to its customers. However, senior Volpe
managers need to make certain that these improvements are fully implemented,
including periodically reviewing PPAs to ensure they incorporate clearly defined
tasks, deliverables with completion dates, cost estimates for each task, and
performance reporting.

Management and Oversight of Volpe Projects Are Hampered by
Insufficient Project Reporting
Volpe project managers and DOT customers are hampered in their ability to
effectively manage and oversee the Center’s projects due to insufficient project
status reports. This is due in large part to shortfalls in Volpe’s data systems,
including their inability to integrate financial and project status information, and
problems associated with last year’s conversion to the Delphi system (DOT’s new
financial management system), as well as the lack of standard reporting
requirements. Due to system constraints, Volpe project managers have created
several approaches to generating needed customer reports, including the use of
PC-based project tracking software. Such efforts, however, have resulted in
significant differences in the information made available to Volpe’s customers and
its usefulness.14 For example, FAA funds its Enhanced Traffic Flow Management
System from three sources. However, current Volpe financial reports do not show
expenditures by funding source, thereby making it difficult for FAA to track
expenditures or remaining available funds from each of the three sources.

Volpe’s reporting difficulties with respect to financial information were
documented in our second report on Volpe (issued August 4, 2004). That report
cited a number of problems, including financial reports that “could be confusing
and were not user-friendly.” That report also noted that what reporting capability
Volpe used to have was lost upon conversion to the Delphi financial system in
May 2003. Volpe is gradually regaining its reporting capability, but the audit
report points out that this process has been costly and the documents generated

13
   The RSPA management assessment also observed that Volpe’s acquisition office “…could serve a
   valuable oversight function in helping ensure the adequacy of all project agreements.” We support this
   and agree that Volpe should include the expertise of their acquisition office, which has a staff
   experienced in defining contract work requirements, in reviewing all PPAs.
14
   RSPA’s Deputy Administrator also noted that he lacked sufficient information to monitor Volpe’s
   activities adequately, especially individual projects.
                                                                                                       11


still lack much of the information available in financial reports issued routinely
before the conversion to Delphi. The report also makes several recommendations
aimed at improving Volpe’s reporting capability, including determining what
ad hoc reporting capabilities Delphi could provide to meet Volpe and customer
reporting needs.

Additionally, the lack of standard reporting requirements has hampered Volpe’s
ability to produce useful project reports. Currently, each Volpe project manager is
left to determine the format, content, and type of information to provide
customers.15 As a result, project reports vary by individual manager and at times
are confusing and not user friendly. For example, DOT customers in our
satisfaction survey expressed concern about Volpe’s reporting, with 10 of
55 respondents citing the need for better cost controls and financial reports and
6 others saying that monthly reports should be formalized to include specific tasks
completed during the month, along with expenditures associated with each task.
Similarly, in interviews with DOT officials associated with 20 projects,
6 managers stated that they found Volpe project and financial status reports
difficult to understand or lacking sufficient information to permit the tracking of
project costs, milestones, and deliverables. To provide better overall management
of the project, status reports need to reflect expenditures and progress to date on
each task and deliverable.

RSPA’s management assessment found similar problems with Volpe’s project
reporting. In particular, RSPA cited the need for a project management system or
tool to track cost to performance and the need to improve communication with the
Center’s customers. As a result,
                                             Table 3. Key Attributes of Project
Volpe has begun to identify                          Performance Reporting
specific steps for tracking costs
to performance and improving         ü Provide status of where the project stands in
customer reports. As part of this       respect to schedule and budget metrics
effort, Volpe needs to work
closely with its key stakeholders    ü Describe progress related to project deliverables
(e.g.,     RSPA      and     DOT        (what is completed, what is in process, and what
customers), as well as its project      is to be initiated)
managers, to identify reporting      ü Forecast future project status and progress
requirements and develop the
necessary automated systems to Source: Project      Management Institute. Guide to the Project Management
                                             Body of Knowledge; Newtown Square, PA: 2000.
ensure the timely dissemination
of financial and project status information. Table 3 identifies the attributes of a
project status report that should be considered in Volpe’s ongoing efforts to

15
     Volpe Order 5000.3B provides little guidance on reporting requirements, noting only that the PPA
     should cite “…noteworthy review or reports requirements as agreed upon with the Sponsor, i.e., interim
     and final reports, sponsor reviews, etc.”
                                                                                                       12


improve the quality of its reports. Specifically, status reports should provide the
percent completed for each task and deliverable and the associated cost expended
to date for each.

Management Controls Are Not Ensuring the Timely Return of
Unneeded Project Funds
Project managers are not closing inactive projects and returning unneeded funds to
customers. Even though Volpe has implemented an annual certification process to
identify projects for closure and returning of remaining funds, project managers
are allowing the funds to remain on projects primarily because customers say they
still plan on using the funds. Since there are no restrictions on when the funds
need to be spent,16 customers have little incentive to ask for the funds to be
returned.17 Nevertheless, Volpe needs to implement better management controls
for identifying inactive projects and for requiring project managers to provide
justification for retaining funds. Such controls should also include more effective
monitoring to ensure the timely closure of the project and return of unneeded
funds to DOT customers and, if required, in turn to the Treasury.

Our review of Volpe’s records found 65 DOT and non-DOT projects with
$1.5 million in available obligation authority that were outstanding as of
May 1, 2003. None of the 65 projects had received any new obligations since
FY 2000, with the $1.5 million being accumulated between FY 1988 and
FY 1999. We reviewed 10 of these projects with $700,000 in available funding to
determine the basis for retaining their obligation authority. Specifically, we had
Volpe’s Financial Management Office generate reports for the 10 projects to
include: (1) new work assignments identified for the current fiscal year;
(2) expenditure, commitment, obligation, and disbursement activity since project
inception by fiscal year; and (3) the uncommitted balance as of May 2003.18
Based on our review of these documents and interviews with Volpe project and
Financial Management Division managers, we identified five projects that they
agreed should be closed and $177,213 in available funding that should be returned
to the customer and, in turn, the Treasury (see Table 4).




16
   Title 49 USC 328(b) notes: “Amounts in the [working capital] fund [for Volpe] are available without
   regard to fiscal year limitation.”
17
   Once Volpe returns the funds to the customer, the customer would not be able to use any funds that
   exceeded the original appropriation timeframe and would have to transfer the funds back to the Treasury.
18
   Volpe has been unable to generate reports since the conversion to the Delphi system in May 2003.
                                                                                  13


   Table 4. Available Funding No Longer Needed as of May 1, 2003
                                                        Questioned   Last Major
 Agency*                        Project Title
                                                          Costs       Activity
                Security Equipment Integrated Product
    FAA                                                   $76,524    FY 1999**
                Team Analysis Support
    FAA         Operations Control Center Support         $49,578    FY 2001
                Foundation Information Real Property
    FAA                                                   $19,494    FY 1993
                Management Support
    OST         Small Business Innovation Research        $18,741    FY 1995
   Other        Office of Airline Information
                                                          $12,876    FY 2002***
   DOT          Management Collections Account
                Total                                    $177,213
* See Exhibit D for a list of acronyms.
** Funds returned in February 2004.
*** Funds returned in June 2004.


The following includes a brief summary of three of these projects.

ü Security Equipment Integrated Product Team Analysis Support (FAA).
  Available project funds as of May 1, 2003, were $76,524 from FY 1997
  funding. The project has been inactive since FY 1999. Funding was for
  FAA’s model Explosive Detection System and was retained by Volpe at
  customer request in case FAA wanted work performed under the model. After
  our initial review, we identified this project for closure. In February 2004,
  Volpe took appropriate action and returned $76,524 to the customer.

ü Operations Control Center Support (FAA). Available project funds as of
  May 1, 2003, were $49,578 from FY 1994 funding. According to the Volpe
  project manager, FAA is in the process of reorganization and does not want the
  funding returned because it still intends to use the funds. However, the
  available funding balance on the project as of March 2004 was $48,296,
  confirming that the project has had little recent activity. Our review of
  accounting records shows disbursements on the project have decreased from
  $23,898 in FY 2001 to $300 in FY 2003, further demonstrating that it has had
  limited activity and that these funds are no longer needed.

ü Small Business Innovation Research (Office of the Secretary of
  Transportation). Available project funds as of May 1, 2003, were $18,741.
  This includes $1,906 of funding from FY 1994 and $16,835 from FY 1995.
  The available fund balance as of March 2004 remains unchanged because the
  project was awaiting additional research and development funding from the
                                                                                                        14


       Office of the Secretary of Transportation. The project has had no new
       financial activity since FY 1995, and no new tasks have been identified for the
       current fiscal year. As of May 2004, this money had not been returned.

Volpe’s existing policy is to have project managers annually certify that funds on
projects are still needed. The Center’s Financial Management Division annually
generates a project certification form listing all active projects and sends it to the
appropriate managers for certification. Volpe office directors (conferring with the
project manager and sponsor if needed) assert that the project is active and funds
are needed. However, the Financial Management Division accepts these
determinations without asking for specific reasons as to why the funds are still
required. To ensure the timely identification of unneeded project funds, Volpe
needs to establish an 18-month criterion in accordance with departmental policy19
and obtain sufficient support20 as to whether the funds should be retained or
returned. Volpe should also identify and assess all inactive projects as part of its
annual certification, as well as complete the return of the $177,213 identified in
Table 4.

RECOMMENDATIONS
We recommend that the Volpe Director and RSPA Administrator:

1. Strengthen policies, procedures, and management oversight to ensure all PPAs
   have adequately defined project requirements, including tasks, cost estimates,
   deliverables with milestones, and performance reporting.

2. Develop an automated reporting and tracking capability that both integrates
   project requirements, schedules, deliverables, and costs and generates more
   useful and easy-to-read financial and project status reports for Volpe’s
   customers.

3. Establish an effective and timely process for identifying and reimbursing
   unneeded funds for projects that are no longer active, to include establishing an
   18-month criterion for designating a project as inactive and establishing a
   stronger oversight process to ensure effective reviews are conducted. In
   addition, complete the return of $177,213 (identified in Table 4) and review the
   remaining 55 projects (totaling $834,226 in available funding) for possible
   closure, with all unneeded funds promptly returned to the customer.



19
     DOT policy memorandum “Active Validation of Obligations,” December 28, 1999.
20
     This process could include requiring Volpe’s customers to provide written justification for keeping the
     project open.
                                                                               15


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
On September 27, 2004, RSPA provided comments (see Appendix) to our draft
report. RSPA concurred with our recommendations, indicating they were
consistent with the observations that were made during the RSPA management
assessment and the DOT Task Force review. RSPA also stated that they have
initiated a comprehensive plan of action to address project management oversight
deficiencies at Volpe and plan to forward to our office these actions and a status
report on this effort by November 17, 2004. Such efforts should help to strengthen
Volpe’s project management oversight. Nevertheless, until we receive RSPA’s
action plan and status report and assess their responsiveness, our recommendations
will remain open.

ACTION REQUIRED
In accordance with DOT Order 8000.1C, we would appreciate receiving your
written comments to our final report by November 17, 2004. For each of the three
recommendations, please indicate the specific action taken or planned and the
target date for completion.

We appreciate the courtesies and cooperation of Volpe, RSPA, and other DOT
representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1992 or Robin K. Hunt, Deputy Assistant
Inspector General for Hazardous Materials, Security and Special Programs, at
(415) 744-3090.

                                        #

cc:   Acting Director of Volpe
      Assistant Secretary for Budget and
         Programs/Chief Financial Officer
      Martin Gertel, M-1
                                                                                16




EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY
The audit objective was to examine Volpe’s project management oversight and
whether such oversight is adequate to ensure cost-effective services. In addressing
this objective, we reviewed pertinent legislation, memoranda, policy directives,
executive decisions, DOT and Volpe policy guidance and plans related to Volpe
activities, and industry best practices. We determined the Department’s oversight
role by meeting with senior DOT management officials and interviewing Volpe’s
DOT clients. We determined whether Volpe provides cost-effective services
through a customer satisfaction survey and a detailed review of 20 randomly
selected DOT projects. As part of this review, we interviewed Volpe project
managers and DOT customers overseeing the 20 projects.

With the assistance of Volpe personnel, we identified a universe of projects with
new obligation authority in the last 5 years (FY 1999 through May 2003) resulting
in 324 DOT and 247 non-DOT projects. We removed 19 U.S. Coast Guard
projects from the 324 DOT projects because of the Coast Guard’s transfer to the
Department of Homeland Security.

From the DOT projects, we randomly selected 60 for which we conducted a
customer satisfaction survey and 20 to assess project management oversight. The
customer satisfaction survey addressed the customer’s reason for selecting Volpe,
the level of satisfaction with Volpe performance on past and present projects, and
any improvements Volpe could make to enhance customer satisfaction in the
future. To assess project management oversight, we conducted structured
questionnaires and on-site follow-up interviews of Volpe project managers and
DOT customers involved in the 20 DOT projects. Specifically, we reviewed how
Volpe develops project agreements, including defining tasks and deliverables,
providing cost estimates, setting schedules and milestones, and defining reporting
requirements. Our audit also included reviewing supporting PPA documentation
for each project. The reviews obtained information about the customers’ and
Volpe’s ability to oversee the projects by means of project status and financial
reports and project tracking systems. We also assessed existing standards and
training requirements for Volpe project managers.

To ensure the timely return of unneeded project funds, we identified 65 DOT and
non-DOT projects that had not received any new obligations since FY 2000. We
reviewed 10 of these projects to determine the basis for retaining existing
obligation authority.



Exhibit A. Objecti ves, Scope, and Methodology
                                                                               17


We reviewed several studies and reports on Volpe, including OIG audit reports
(see Exhibit C) and RSPA’s management assessment draft report (July 18, 2003).
We also met with the RSPA management assessment team to discuss its
observations, and we reviewed related briefings and consultant reports on follow-
up actions being taken. Throughout the process, we met with the Volpe Director
and staff and RSPA officials to gain an understanding of the ongoing actions and
to obtain documents as needed.

We conducted work at Volpe in Cambridge, Massachusetts, at RSPA, and at other
selected DOT offices in Washington, DC. We conducted the audit from July 2003
through June 2004. The audit was done in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States and included
tests of internal management controls as were considered necessary. In the
conduct of this audit, we used computer-generated data from Volpe. We did not
assess the general and application controls for each of the automated systems. For
some of these data, such as yearly funding totals, we relied on recent audit work
done by another office within our organization.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                                                                              18



EXHIBIT B. SUMMARY OF PROJECT MANAGEMENT WEAKNESSES
                                                                                                                             Reporting
                                                                                                 Cost      Deliverables    Requirements
                                                                              Work Scope
                                                                                              Estimates        with        for Measuring
  No.                              Sponsor Agency,* Project                   Described by
                                                                                              Related To   Completion       Performance
                                                                              Specific Task
                                                                                              Each Task       Dates       and Controlling
                                                                                                                               Costs
   1       FTA, Drug and Alcohol Guidelines/Newsletters                           No             No            No               No
   2       FAA, Central Region Environmental and Safety Support                   Yes            No            No               No
   3       FTA, Drug and Alcohol Testing Compliance                               No             No            Yes              No
   4       FAA, Wake Turbulence                                                   No             No            No               No
           NHTSA, Automated Data Processing Systems/Programming—National
   5                                                                              Yes            No            Yes              No
           Automotive Sampling System
           FAA, National Airspace System Property Accounting and Financial
   6                                                                              Yes            No            No               No
           Systems Support
    7      STB, Information System Technical Support**                            No             No            No              No
    8      FAA, Traffic Flow Management                                           Yes            No            Yes             Yes
    9      FAA, Environmental Compliance Employee Safety Program                  No             No            No              No
   10      FAA, Free Flight Program Support                                       Yes            No            No              No
   11      NHTSA, Evaluation of Drowsy Driver Warning System                      Yes            No            Yes             Yes
   12      FTA, Bus Rapid Transit Technical Support                               No             No            Yes             No
   13      RSPA, Hazardous Materials Information System Redesign                  Yes            No            No              Yes
   14      GMATS, International Port Security Program**                           No             No            No              No
   15      FMCSA, Motor Carrier Analysis Regulatory Support                       Yes            No            No              No
   16      RSPA, Transportation Infrastructure Assurance R&D                      Yes            No            No              No
           SLSDC, Saint Lawrence Seaway Automatic Identification System
   17                                                                             Yes            Yes           Yes              No
           Network System Support
   18      FAA, Technical Support to the Runway Safety Program Office             No             No            No               No
   19      NHTSA, Alcohol Countermeasures Support                                 Yes            No            Yes              No
   20      FAA, Safety Analysis Support                                           Yes            No            No               No
            Projects Meeting Attributes of a Well-Defined Project Agreement     12 of 20       1 of 20       7 of 20          3 of 20

        * See Exhibit D for a listing of organizational acronyms.
        ** A reimbursable agreement was used in lieu of a PPA.


Exhibit B. Summar y of Project Management Weaknesses
                                                                                  19




EXHIBIT C. PRIOR AUDIT COVERAGE
OIG Report Number R2-RS-4-021, “Project Acceptance Review
Volpe National Transportation System Center,” June 8, 1994
We found that while Volpe contributed significantly to DOT’s research programs,
the Center accepted projects with little or no research value and projects which
were outside its basic mission of transportation research, development, testing, and
evaluation. The report also noted that Volpe did not deobligate and return excess
funds from projects amounting to about $66 million at the end of FY 1992. In
response to the OIG’s report findings and recommendations, Volpe developed
formal criteria limiting the acceptance of projects and evaluated proposed work
against these criteria. Volpe performed a project-by-project review to determine
which projects were completed or otherwise inactive so that remaining
obligational authority could be returned to the sponsoring agency.

OIG Report Number MH-2002-071, “Review of the Office of
Defects Investigation, National Highway Traffic Safety
Administration,” January 3, 2002
We found the Office of Defects Investigation’s project with Volpe to replace the
Office’s current defect database with a new information system was at risk
because of poor project management and planning. Specifically, a detailed project
schedule and detailed resource requirements had not been developed, project
duties and responsibilities had not been finalized, and the project scope had not
been fully defined. The OIG recommended NHTSA create a detailed project plan
that will show specific tasks linked to a starting and ending date, resources, and
deliverables. The report also recommended that NHTSA create a detailed
organizational structure that identifies roles and clearly defines responsibility for
major task areas.

OIG Report Number SC-2004-077, “The Role and Functions of
the Volpe National Transportation System Center,” August 4,
2004
We addressed Volpe’s role and functions in the Department and whether it was
meeting DOT’s needs. The report concluded that DOT senior leaders need to take
a more active role in determining the Center’s mission, role, functions, and
activities within the Department and in overseeing its planning and project
acceptance processes. This will help to ensure that all future work represents the
most effective use of Volpe’s resources and has direct value to the Department.
Towards this end, we recommended that the Department establish a DOT


Exhibit C. Prior Au dit Coverage
                                                                                 20


oversight board for Volpe composed of senior departmental representatives from
OST and DOT Operating Administrations. We recommend that the board report
directly to the Deputy Secretary and provide input to the RSPA Administrator in
defining Volpe’s mission and role, developing its strategic and business plans and
core capabilities, and improving the Center’s procedures for accepting projects.
We also recommended that the board review and provide feedback to the Deputy
Secretary and the RSPA Administrator on interagency agreements and memoranda
of understanding between DOT and other agencies that involve significant
amounts of work for Volpe.

OIG Report Number FI-2004-076, “Audit of Financial Controls for
Cost Accounting and Billing Practices, Volpe National
Transportation Systems Center,” August 4, 2004
We evaluated Volpe’s operations to determine whether the revenues and costs,
accumulated by project and funded by various agencies, are accurately reflected in
the accounting records. We also evaluated Volpe’s overhead rate development
and implementation, including its method of distributing overhead costs to
projects. We concluded that Volpe accurately recorded direct costs, such as labor
and acquisitions (contracts), and assigned them to projects appropriately.
However, the treatment of indirect costs during both FY 2002 and FY 2003 did
not comply with generally accepted accounting principles. Volpe recorded over
$2 million of FY 2003 overhead costs in the year obligated, FY 2002, rather than
the year the costs were actually incurred, FY 2003. In addition, after converting to
DOT’s new Delphi financial management system in May 2003, Volpe’s reporting
capacity was adversely affected. We recommended a series of actions to correct
the accounting system deficiencies and improve reporting capabilities.

OIG Report Number MH-2004-088, “Follow-up Audit of the Office
of Defects Investigation, National Highway Traffic Safety
Administration,” September 23, 2004
We evaluated NHTSA’s progress in implementing the Transportation Recall
Enhancement, Accountability, and Documentation (TREAD) Act and followed up
on issues identified in our January 2002 report. We found that NHTSA has
successfully implemented 20 of the 22 requirements of the TREAD Act, and it
completed development of a new safety defects information system called
ARTEMIS. However, the ARTEMIS development effort experienced significant
cost increases and schedule delays due to Volpe’s and NHTSA’s poor project
planning and execution. Specifically, development cost estimates increased
76 percent from $5.35 million in June 2001 to $9.4 million in March 2004, and
schedule estimates increased from 21 months to 42 months during the same time
period. We also found that NHTSA had identified but could not verify
$17.12 million as future operations and maintenance costs for ARTEMIS.


Exhibit C. Prior Au dit Coverage
                                                                               21


NHTSA subsequently reduced this amount to $11.46 million, thus creating an
opportunity to put $5.66 million to better use.

In addition, we found that ARTEMIS does not have the analytical capabilities
originally envisioned to help point analysts toward potential safety defects
warranting further investigation. NHTSA plans to separately acquire these
capabilities but has not finished defining the capabilities needed, identified the
software it will purchase to analyze the early warning reporting information,
outlined associated costs, or established a schedule for implementing these
capabilities. We made several recommendations for moving ahead with the use of
manufacturer early warning reporting information for opening defects
investigations. NHTSA concurred with our recommendations.




Exhibit C. Prior Au dit Coverage
                                                                   22




EXHIBIT D. ORGANIZATIONAL ACRONYMS


 DOT              Department of Transportation

 FAA              Federal Aviation Administration

 FMCSA            Federal Motor Carrier Safety Administration

 FTA              Federal Transit Administration

 GMATS            Global Maritime and Transportation School

 NHTSA            National Highway Traffic Safety Administration

 OIG              Office of Inspector General

 OST              Office of the Secretary of Transportation

 RSPA             Research and Special Programs Administration

 SLSDC            Saint Lawrence Seaway Development Corporation

 STB              Surface Transportation Board




Exhibit D. Organizational Acr onym s
                                                                      23




EXHIBIT E. ACTIVITIES VISITED OR CONTACTED

   • Volpe National Transportation System Center, Cambridge, MA

   • Research and Special Programs Administration, Washington, DC

   • Office of the Secretary of Transportation, Washington, DC

   • Federal Aviation Administration, Washington, DC

   • Federal Highway Administration, Washington, DC

   • Federal Transit Administration, Washington, DC

   • National Highway Traffic Safety Administration, Washington, DC

   • Surface Transportation Board, Washington, DC




Exhibit E. Acti vities Visited or Contacted
                                                                                                          24




           APPENDIX. MANAGEMENT COMMENTS



           U.S. Department
           of Transportation
           Research and
           Special Programs
           Administration



Subject:   ACTION: Draft Report on Volpe’s Project                          Date:    September 27, 2004
           Management Oversight
           Research and Special Programs Administration
           Project No. 04B3004B000

  From:    Samuel G. Bonasso                                             Reply to
                                                                         Attn. of:
           Deputy Administrator

    To:    Kenneth M. Mead
           Inspector General


           This is in response to your request for action, as cited in the subject Draft Report. We are in
           complete agreement with the recommendations presented in the report. These recommendations
           are consistent with the observations that were made during the RSPA management assessment
           and the DOT Task Force review. We have initiated a comprehensive plan of action to address
           project management oversight deficiencies at the Volpe Center. We will forward to your office
           these actions and a status report on this effort by November 17, 2004.


           cc:
           S-1/J. Flaherty
           S-2/K. Van Tine




           Appendix. Management Comment s
